Audit Report




OIG-13-011
Management Letter for the Audit of the Community
Development Financial Institutions Fund’s Fiscal Years 2012 and
2011 Financial Statements


November 13, 2012




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL                           November 13, 2012


            MEMORANDUM FOR DONNA J. GAMBRELL, DIRECTOR
                           COMMUNITY DEVELOPMENT FINANCIAL
                           INSTITUTIONS FUND

            FROM:                 Michael Fitzgerald
                                  Director, Financial Audits

            SUBJECT:              Management Letter for the Audit of the Community
                                  Development Financial Institutions Fund’s Fiscal Years 2012
                                  and 2011 Financial Statements

            I am pleased to transmit the attached management letter in connection with the
            audit of the Community Development Financial Institutions Fund’s (CDFI) Fiscal
            Years 2012 and 2011 financial statements. Under a contract monitored by the
            Office of Inspector General, KPMG LLP (KPMG), an independent certified public
            accounting firm, performed an audit of the CDFI’s financial statements as of
            September 30, 2012 and 2011, and for the years then ended. The contract
            required that the audit be performed in accordance with generally accepted
            government auditing standards; applicable provisions of Office of Management and
            Budget Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
            amended; and the GAO/PCIE Financial Audit Manual.

            As part of its audit, KPMG issued and is responsible for the accompanying
            management letter that discusses a matter involving internal control over financial
            reporting that was identified during the audit, but was not required to be included
            in the auditors’ reports.

            In connection with the contract, we reviewed KPMG’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789, or a
            member of your staff may contact Catherine Yi, Manager, Financial Audits at
            (202) 927-5591.

            Attachment
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




November 12, 2012


Inspector General
U.S. Department of Treasury
Washington, DC

Director, Community Development Financial Institutions Fund
Washington, DC

Ladies and Gentlemen:

In planning and performing our audit of the financial statements of the U.S. Department of the
Treasury’s Community Development Financial Institutions Fund (the CDFI Fund), as of and for
the year ended September 30, 2012, in accordance with auditing standards generally accepted in
the United States of America; the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States; and
Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal
Financial Statements, as amended, we considered the CDFI Fund’s internal control over
financial reporting (internal control) as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the financial statements but not for the purpose of
expressing an opinion on the effectiveness of the CDFI Fund’s internal control. Accordingly, we
do not express an opinion on the effectiveness of the CDFI Fund’s internal control.
During our audit we noted a certain matter involving internal control and operational matters that
is presented for your consideration. This comment and recommendation, all of which have been
discussed with the appropriate members of management, are intended to result in other operating
efficiencies and are summarized in the attached Appendix A.
The CDFI Fund’s written response to our comments and recommendations (also in Appendix A)
has not been subjected to the auditing procedures applied in the audit of the financial statements
and, accordingly, we express no opinion on it.
Our audit procedures are designed primarily to enable us to form an opinion on the financial
statements, and therefore may not bring to light all weaknesses in policies or procedures that
may exist. We aim, however, to use our knowledge of the CDFI Fund’s organization gained
during our work to make comments and suggestions that we hope will be useful to you.
We would be pleased to discuss this comment and recommendation with you at any time.




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
Community Development Financial Institutions Fund
November 12, 2012
Page 2 of 4




This communication is intended solely for the information and use of the addressees, OMB, the
U.S. Government Accountability Office, and the U.S. Congress, and is not intended to be and
should not be used by anyone other than these specified parties.
Very truly yours,
                                                                                    Appendix A




Tracking, Receipt and Review of Awardee Data

During our fiscal year 2012 financial audit of the Community Development Financial
Institutions Fund (CDFI Fund) we tested aspects of the grant cycle for CDFI Fund’s core
programs not associated with the New Markets Tax Credit Program. Specifically, we conducted
procedures over the tracking, receipt and review of awardees’ key report submissions as
stipulated in award agreements. As a result of our procedures, we identified the following
instances of non-receipt/non-review of awardee reports that were due in fiscal year 2012:

Of the thirty-two items sampled, we identified:

•   eight instances where Institution Level Reports (ILRs) had not been reviewed as of
    October 16, 2012, which was the date the financial statements were available for our review.
    The majority of these reports had been received by the CDFI Fund prior to August 31, 2012
    and were thus capable of being reviewed coincident with the stipulated timeframe. Of these
    instances, three were marked as compliant but the completed documentation was not
    returned to the file as of October 16, 2012.
•   five instances where the CDFI Fund was incapable of performing its assessments and
    reviews as the awardees were non-compliant with their annual contractual reporting (i.e.
    ILRs) as of September 30, 2012. For these instances, we determined that the CDFI Fund had
    sent e-mails to notify awardee of overdue reports and formalize their non-compliant status.

Of the thirty-two selections tested, we note that there were no “desk reviews” or site visits
completed in fiscal year 2012. For one of our samples, a site visit was scheduled for
September 25, 2012 but was delayed until October 9, 2012.

While the New Markets Tax Credit Program has an automated and integrated awardee-level
analytics, the comparable automated and integrated awardee-level analytics capability for the
core CDFI program awards/awardees is not yet operational. Currently, there is a reliance on part
manual part automated processes that are dependent on a combination of both structured and
semi-structured data, which could further be caused by staffing constraints and budgetary factors
beyond the control of program management.

The CDFI Fund is not consistently in the position of fully adhering to certain provisions of the
Riegle Act, specifically those related to the assessment of whether awardee performance goals
and other statutory stipulations are achieved. If the CDFI Fund is not timely in identifying
potential awardee non-compliance, there would likely be consequential delays in determining
and executing available remedies under the Act and specific award agreements. Such remedies
can include executory actions and financial remedies up to and including the full recapture of
non-compliant award funds.
                                                                                     Appendix A




Recommendation

We recommend that management of the CDFI Fund undertake steps to ensure the CDFI Fund is
fully complying with certain provisions of the Riegle Act, specifically those related to the
assessment of whether awardee performance goals and other statutory stipulations are achieved.


Management’s Response
The CDFI Fund concurs with the recommendation and is already in the process of taking the
appropriate actions to resolve the issue. Specific actions include:
(1) Award of a contract for an Awards Management Information System (AMIS) by December
    31, 2012, if a contract is awarded under the current Request for Proposals. The CDFI Fund
    is in the final stages of proposal and price evaluations for this contract. The deployment of
    AMIS will include automation of compliance processes for the CDFI program awardees.
(2) Increasing the compliance management staff from seven to twelve. Additional staff is
    expected to be on board by December 31, 2012. The additional resources will be deployed
    to ensure that required reports are reviewed on a timely basis following their receipt.
(3) Conducting desk reviews and site visits during FY 2013. At least 20 site visits or desk
    reviews are scheduled through the end of the first quarter FY2013. Additional reviews are
    in the process of being planned for the remainder of the fiscal year.
The CDFI Fund notes that desk reviews and site visits are risk based and therefore will not be
conducted on every awardee. While the CDFI Fund has performed some desk reviews and site
visits in the past, management recognizes that more attention needs to be placed in this area as it
works to implement a more robust compliance function.
